OIG Investigative Reports, Former Manager of Linda Schrenko Campaign Pleads Guilty to Attempted Witness Tampering
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE
December 21, 2004
U. S. Attorney's Office
Northern District of Georgia
75 Spring Street, S.W. - Suite 600
Atlanta, Georgia 30303
Tel: 404-581-6000
Fax: 404-581-6181
Former Manager of Linda Schrenko Campaign Pleads Guilty to Attempted Witness Tampering
David E. Nahmias, United States Attorney for the Northern District of Georgia; Lester Fernandez, Special Agent in Charge, Department of Education, Office of Inspector General; and Gregory Jones, Special Agent in Charge, Federal Bureau of Investigation, announce that RICHARD LEONARD, 43, of Augusta, Georgia, entered a plea of guilty today before United States District Judge Clarence Cooper.  LEONARD pleaded guilty to a one count criminal information charging him with attempted witness tampering in an effort to dissuade an individual from providing truthful information to federal law enforcement agents regarding the source of cash contributions to the gubernatorial campaign of Linda Schrenko in 2002.  According to U.S. Attorney Nahmias and the information presented during the plea hearing:
LEONARD, the former manager of Linda Schrenko's 2002 gubernatorial campaign, has pleaded guilty to attempting to harass one of the individuals whom Leonard previously had recruited to cash "focus group" checks, in the amount of $590 each, and return the proceeds from those cashed checks as contributions to the Schrenko campaign.  In a recorded conversation, LEONARD requested that individual not to make any mention of the Schrenko campaign during any interview with federal investigators because that would advance the investigation of sources of funds for the Schrenko campaign.  LEONARD repeatedly urged that individual to falsely state to federal investigators that the individual had been paid for participating in a focus group. In fact, claiming that the $590 checks were payments for  "focus group" participation was a fabrication and no focus group ever was held.  The defendant is cooperating in the investigation.
Assistant United States Attorneys Russell G. Vineyard and Daniel A. Caldwell are prosecuting the case.
For further information please contact David E. Nahmias, United States Attorney,  or F. Gentry Shelnutt, Chief, Criminal Division, at (404) 581-6065.  The Internet address for the HomePage for the U.S. Attorney's Office for the Northern District of Georgia is www.usdoj.gov/usao/gan
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov